TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Additional Security Is Needed for
                       Access to the Registered User Portal



                                          March 31, 2010

                              Reference Number: 2010-20-027




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1 = Tax Return/Return Information
 2(f) = Risk Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    March 31, 2010


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                            Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – Additional Security Is Needed for Access to the
                                  Registered User Portal (Audit # 200920014)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) established effective access and audit trail controls for the Registered User Portal (RUP),
 which allows access to the IRS’ e-Services 1 suite of applications, to protect taxpayer data from
 unauthorized disclosure. This audit was included in the Treasury Inspector General for Tax
 Administration’s Fiscal Year 2009 Annual Audit Plan and was part of our statutory requirement
 to annually review the adequacy and security of IRS technology.

 Impact on the Taxpayer
 The use of the Internet is an integral part of the IRS’ mission to deliver top quality service to all
 taxpayers. The IRS developed the RUP to help accomplish this mission. The RUP serves as the
 entry point for web access to e-Services applications and provides outside tax professionals with
 the ability to submit and retrieve tax-related information and electronically file (e-file) tax
 returns. Because these external users can access taxpayer data, modify electronic tax returns
 prior to transmitting them to the IRS, and download taxpayer data to their computers, access
 controls at the RUP are critical to minimize the risk of unauthorized access to taxpayers’
 personal tax data.




 1
     See Appendix IV for a list of e-Services products.
                                          Additional Security Is Needed for
                                        Access to the Registered User Portal




Synopsis
The RUP and e-Services applications allow the IRS to become more efficient and make tax filing
easier. During the 2008 Filing Season, 2 58 percent of all tax returns, nearly 90 million of the
155 million tax returns filed, were received electronically. However, the RUP and e-Services
applications also pose risks to the security of taxpayers’ personal data. To mitigate the risks, the
IRS implemented several access controls. For example, the RUP automatically disables a user
account after three unsuccessful logon attempts, passwords are masked to prevent the passwords
from being viewed when typed, and the RUP displays a banner to warn persons attempting to
gain access that illegal attempts to log on to the system could lead to criminal prosecution.
Although some access controls are in place, several other required controls were not
implemented.
      •    Suitability checks are not performed on all users who e-file tax returns and access
           taxpayer data. The IRS allows principals and responsible officials at tax preparation
           firms to delegate their access rights to other individuals. These “delegates” may be
           members of the firm or persons with whom the firm has a business relationship and do
           not undergo a suitability check. A principal or responsible official also has the ability to
           delegate a “Principal Consent” right that allows the delegated user to propagate his or her
           access rights to other individuals.
      •    The IRS did not always follow its procedures for approving e-file applicants who failed
           the criminal background part of their suitability check. *****1*******************
           *******1************************************************** 3 ***1*******
           *******1**************************************************************
           *******1**************************************************************
           *******1*************************************. IRS procedures do not specify
           which IRS office has the final authority to approve or disapprove an e-file applicant’s
           request to participate in the e-file program when an applicant fails his or her criminal
           background check.
      •    Limitations in the Third Party Data Store, which is used to record and monitor
           information about individuals who have applied to participate in the e-file program,
           prevent this system from posting the complete results of the systemic tax compliance
           check that is performed on an applicant’s spouse. Therefore, the spouse’s tax compliance
           check is performed manually, which is inefficient and increases the risk of human error.
      •    The RUP was not configured to disable and remove users’ access accounts in accordance
           with IRS security policies and procedures. Systems are required to disable inactive

2
    The period from January through mid-April when most individual income tax returns are filed.
3
    The IRS e-file program allows individuals to submit tax form data over the Internet.
                                                                                                      2
                                      Additional Security Is Needed for
                                    Access to the Registered User Portal




        accounts after 45 days and remove the accounts after 60 days. 4 Inactive accounts
        unnecessarily increase the opportunity for malicious individuals to gain access to
        taxpayer data through an unused account. Rather than implement the control to disable
        inactive accounts after 45 days, the IRS set the control to 720 days. In addition, the IRS
        did not implement a control to remove inactive accounts. The controls were not
        established because the IRS wanted to accommodate the users, many of whom have only
        a seasonal need to use the RUP.
    •   Required password controls were not implemented, and some individuals were using
        their Social Security Number as their username. The Office of Management and Budget 5
        advised agencies in May 2007 to avoid or reduce the use of Social Security Numbers as
        personal identifiers.
    •   The IRS did not implement the control to **********2**************************
        ******2**************** and does not analyze the RUP audit logs to detect unlawful
        or unauthorized activities.

Recommendations
To ensure taxpayer data are safeguarded, we recommended the Director, Electronic Tax
Administration and Refundable Credits, Wage and Investment Division, 1) require suitability
checks on delegated users who e-file tax returns or access the e-Services incentive products and
disable the principal consent feature; 2) revise the appeal procedures for e-file applicants who fail
their suitability check to specify that the Fraud Detection Center has the final approval authority;
3) disable and delete inactive RUP accounts in accordance with IRS procedures or follow the
IRS risk-based decision procedures to obtain the required thorough assessment, recommendation,
and approval to not implement the required security controls; 4) request the Chief Technology
Officer enhance the RUP to require passwords to contain a mix of lower case and upper case
letters, set the password length to 12 characters, and prevent the use of Social Security Numbers
as usernames and obtain the required thorough assessment, recommendation, and approval to
deviate from the IRS password expiration and history requirements; and 5) request the Chief
Technology Officer implement a control to allow users to answer a series of challenge questions
to unlock their accounts.
We also recommended the Chief Technology Officer enhance the e-file application on the Third
Party Data Store to post the complete results of the tax compliance check that is performed for an



4
 During our fieldwork, the IRS changed its requirement for removing inactive accounts to 180 days.
5
 Office of Management and Budget memorandum Safeguarding Against and Responding to the Breach of
Personally Identifiable Information (M-07-16, dated May 22, 2007).
                                                                                                     3
                                   Additional Security Is Needed for
                                 Access to the Registered User Portal




applicant’s spouse and instruct the Cybersecurity office to develop a process to analyze the
activities of RUP users and begin reviewing the audit logs.

Response
IRS management agreed to 1) perform suitability checks on delegated users who e-file tax
returns or access the e-Services incentive products; 2) strengthen the procedures for evaluating
e-file applicants who fail their suitability check and establish an Executive Review Board to
formally consider deviations from the Criminal Investigation Division’s recommendations;
3) request the Modernization and Information Technology Services organization enhance the
Third Party Data Store to post the entire results from the Automated Suitability Analysis
Program; 4) complete a full risk-based decision process and execute a revised risk-based
decision memorandum that complies with the Modernization and Information Technology
Services organization’s standards; 5) prevent the use of Social Security Numbers as usernames,
require passwords to contain a mixture of uppercase and lowercase letters, and work with the
Modernization and Information Technology Services organization’s Cybersecurity office to
obtain the requisite thorough assessment, recommendation, and approval to deviate from the
IRS’ password expiration requirement; and 6) request the Modernization and Information
Technology Services organization make programming changes to the RUP to allow users to
answer a series of challenge questions to unlock their accounts. The IRS also stated that the
RUP audit logs are now being reviewed to detect unauthorized activities.
In addition, the IRS stated it does not believe the final authority for approvals of applicants with
criminal records should rest solely with the Criminal Investigation Division, and it revised its
procedures, as of July 31, 2009, to lower the minimum password length to eight characters for all
systems except the Windows operating system.
Management’s complete response to the draft report is included as Appendix V.

Office of Audit Comment
We concur with the IRS decision to establish an Executive Review Board to formally consider
deviations from the Criminal Investigation Division’s recommendations. The IRS stated the new
board will include members from the Office of Professional Responsibility along with
representatives from other IRS business operating divisions. Members from outside of the Wage
and Investment Division should ensure an impartial suitability decision process. Regarding the
IRS disagreement with our recommendation to set the password length to 12 characters, we
confirmed the IRS lowered its password complexity requirements to require only 8 characters for
all non-Windows operating systems. Therefore, we concur with the IRS decision to not set the
password length to 12 characters.


                                                                                                   4
                                Additional Security Is Needed for
                              Access to the Registered User Portal




Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Alan Duncan,
Assistant Inspector General for Audit (Security and Information Technology Services), at
(202) 622-5894.




                                                                                             5
                                              Additional Security Is Needed for
                                            Access to the Registered User Portal




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Some Access Controls for the Registered User Portal
          and E-Services Applications Were Implemented but
          Improvements Are Needed ...........................................................................Page 4
                    Recommendations 1 and 2: ..............................................Page 11

                    Recommendations 3 through 5:.........................................Page 12

                    Recommendation 6:........................................................Page 13

          Audit Logs for the Registered User Portal Are Not Reviewed.....................Page 13
                    Recommendation 7:........................................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – List of Internal Revenue Service
          E-Services Products ......................................................................................Page 20
          Appendix V - Management’s Response to the Draft Report ........................Page 22
              Additional Security Is Needed for
            Access to the Registered User Portal




                Abbreviations

DAA      Designated Approving Authority
e-file   Electronically file; electronic filing
ETARC    Electronic Tax Administration and Refundable Credits
FDC      Fraud Detection Center
IRS      Internal Revenue Service
MITS     Modernization and Information Technology Services
RUP      Registered User Portal
TIN      Taxpayer Identification Number
                                         Additional Security Is Needed for
                                       Access to the Registered User Portal




                                             Background

The use of the Internet is an integral part of the Internal Revenue Service’s (IRS) mission to
deliver top quality service to all taxpayers. The need to use the Internet is partly driven by the
IRS Restructuring and Reform Act of 1998, 1 which required the IRS to become more efficient,
make tax filing easier, and receive 80 percent of all tax returns electronically by 2007.
To help accomplish this mission, the IRS developed the
Registered User Portal (RUP) and e-Services suite of
applications. The RUP serves as the entry point for web        The RUP and e-Services allow tax
access to e-Services applications. The e-Services was           professionals to use the Internet
one of the first business systems modernization projects         to e-file tax returns and submit
                                                                     and retrieve tax-related
initiated by the IRS and includes a suite of web-based                      information.
products that allow tax professionals to submit and
           2

retrieve tax-related information and electronically file
(e-file) tax returns. Tax professionals that e-file at least
five tax returns per year are also granted access to e-Services incentive products that allow tax
professionals to electronically submit a Power of Attorney document to the IRS, send and
receive inquiries about individual or business account problems, and download taxpayers’
personal tax data to computers outside of the IRS.
During the 2008 Filing Season, 3 58 percent of all tax returns, nearly 90 million of the 155 million
tax returns filed, were received electronically. Along with the increased efficiency and other
benefits, the RUP and e-Services present security risks. Taxpayers entrust the IRS with their
sensitive financial and personal data and expect the IRS to protect these data from unauthorized
disclosure and identity theft.
A previous review 4 conducted by the Treasury Inspector General for Tax Administration on tax
preparers identified fraudulent activity within the tax preparer environment, which increases our
concern of the security risks affecting the RUP and e-Services. We reported that the IRS was not
aware of 160 tax preparers who had been assessed tax penalties, were permanently enjoined by a
Federal Court, or had been sentenced for abusive tax shelter activities that caused loss to the
Federal Government of approximately $34.9 million. These preparers were still eligible to


1
  Pub. L. 105-206, 122 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C.,
19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix IV for a list of e-Services products.
3
  The period from January through mid-April when most individual income tax returns are filed.
4
  Tax Practitioners Promoting Abusive Tax Shelters Are Still Able to Represent Taxpayers Before the Internal
Revenue Service (Reference Number 2009-10-039, dated February 20, 2009).
                                                                                                             Page 1
                                   Additional Security Is Needed for
                                 Access to the Registered User Portal



represent 9,766 taxpayers before the IRS. In addition, the Treasury Inspector General for Tax
Administration Office of Investigations has investigated numerous ongoing fraudulent activities
in the tax preparation industry. Examples include preparers who overstate their qualifications,
steal clients’ tax payments or tax refunds, impersonate IRS employees, and misuse the IRS seal
or logo. The IRS is especially vulnerable since it does not know how many paid preparers exist
and cannot determine the full extent of noncompliance among preparers.
The IRS uses access controls to protect taxpayers’ data processed through the RUP. Access
controls include authentication, authorization, and accountability. Authentication includes
determining who can log on to a system. Authorization determines what a user can do after they
are authenticated, and accountability identifies what a user did when they were on the system.
Poor access controls could result in intruders gaining unauthorized access to taxpayer data.
The responsibility for managing the RUP and e-Services is shared by the Wage and Investment
Division and Modernization and Information Technology Services (MITS) organization.
   •   The Wage and Investment Division’s Electronic Tax Administration and Refundable
       Credits (ETARC) office sets the policies for the RUP and manages the relationships with
       key internal and external stakeholders as well as industry partners to increase the IRS’
       electronic interaction with the public.
   •   The Wage and Investment Division Electronic Products and Services Support function
       provides program management for e-Services, including the e-help desk.
   •   The MITS organization’s Portal Program Management office provides program direction,
       oversight, and central control of the IRS portal environment, including oversight of the
       contractor that manages the RUP components located in Chicago, Illinois, and
       Sterling, Virginia.
   •   The MITS organization’s Cybersecurity office administers the Enterprise Directory and
       Authentication Services, which provides identification and authorization for registered
       users on the RUP.
All tax professionals who use the e-Services products must register by logging on to the RUP
and creating an electronic account. The registration process is a one-time automated process
where the user selects a username, password, and personal identification number.
This review was performed at the Wage and Investment Division’s ETARC office in
Washington, D.C.; the Electronic Products and Services Support function in
Andover, Massachusetts; the MITS organization’s Portal Program Management office and
Enterprise Operations office in New Carrollton, Maryland; and the Cybersecurity office in
Martinsburg, West Virginia. We performed the review during the period April through
October 2009 and conducted our work in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
                                                                                           Page 2
                                  Additional Security Is Needed for
                                Access to the Registered User Portal



based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 3
                                   Additional Security Is Needed for
                                 Access to the Registered User Portal




                                 Results of Review

Some Access Controls for the Registered User Portal and E-Services
Applications Were Implemented but Improvements Are Needed
The IRS has established some of the access controls that are necessary to protect taxpayer data
processed by the RUP and e-Services. Specifically:
   •   Individuals, businesses, and organizations are required to register on the e-Services web
       site. The information gathered during this registration process is used to confirm the
       user’s identity.
   •   Users are automatically locked out after three unsuccessful logon attempts. This control
       prevents hackers from forcing their way into the system by repeatedly trying to guess a
       user’s password.
   •   Passwords are masked when typed to strengthen security over passwords.
   •   E-Service applications display a warning banner to advise all persons attempting to gain
       access that the system and its information are for authorized users only and attempts to
       illegally log on to the system could lead to criminal prosecution.
   •   No group, temporary, or emergency accounts on the RUP identification and authorization
       servers existed. Avoiding these accounts is important because they offer unauthorized
       users additional opportunities to access and exploit the system.
Although the IRS has implemented some of the required security controls, additional controls are
needed to protect taxpayer information.

Suitability checks were not performed on all users who e-file tax returns and
access taxpayer data
The IRS performs a suitability check when a principal or responsible official of a tax firm applies
to file tax returns electronically. The suitability check was originally implemented because
electronic filing firms could change tax return data after the taxpayer signed the return but before
transmitting the return to the IRS. The ability to alter tax return data without the taxpayer’s
knowledge increased the risk of fraud for electronic filing firms as opposed to paper tax return
preparers. Therefore, the IRS designed the suitability check to screen and monitor e-file
applicants to ensure they meet and maintain the highest ethical standards.
The suitability check includes a tax compliance check, a check for prior noncompliance with
e-file requirements, and a criminal background check. The criminal background check is
                                                                                             Page 4
                                        Additional Security Is Needed for
                                      Access to the Registered User Portal



performed on a sample 5 of the applicants. The need to perform these suitability checks increased
after the IRS developed the three e-Services incentive products. A tax professional automatically
gains access to these incentive products after filing five returns electronically. Despite these
risks, the IRS does not perform suitability checks on all users with the ability to e-file tax returns
and access the e-Services incentive products.
The IRS allows principals and responsible officials to delegate their access rights to employees,
partners, members of the firm, or any person with a business relationship with the firm. These
“delegated” users are not required to undergo a suitability check. In addition, a principal or
responsible official can assign a special “Principal Consent” privilege to a delegated user which
allows the delegated user to propagate his or her privileges to other individuals. We found that
the IRS had 9,988 delegated users with the ability to e-file income tax returns and approximately
6,500 of these users also had access to the e-Services incentive products.
The IRS made a decision to allow principals and responsible officials to assume the risks of
delegating their access rights to other individuals and believes the risks are mitigated by
requiring principals and responsible officials to file a Power of Attorney 6 with the IRS.
However, taxpayers expect the IRS to protect their personal data, and we believe the Power of
Attorney document does not provide the same assurance as the suitability check.
Further, since a delegated user does not need to be an employee or member of the firm, any
individual can become a delegated user. Many of the delegated users may have questionable
backgrounds. For example, in the sample of 111 RUP users that we evaluated, the IRS
conducted a criminal background check on 18 users and found 6 had criminal records. A
delegated user could steal taxpayer data for identity theft purposes and grant access to other
unscrupulous individuals. Reviewing an individual’s background allows the IRS to make the
appropriate decision on who should e-file tax returns or have access to the RUP and
e-Services applications.
In July 2009, the MITRE Corporation 7 completed a review of the processes associated with the
IRS e-file program and recommended the IRS require all e-file applicants, including delegated
users, undergo a suitability check. In its response, the IRS stated it would conduct an impact
analysis and consider performing eligibility and qualification checks on every individual within a
firm, rather than on the firm itself, and possibly assigning a separate Electronic Filing




5
  The IRS began conducting criminal background checks on most e-file applicants in June 2009.
6
  A Power of Attorney is a written authorization to act on someone else’s behalf in a legal or business matter.
7
  The MITRE Corporation is a not-for-profit organization chartered to work in the public interest. The MITRE
Corporation provides expertise in systems engineering, information technology, operational concepts, and enterprise
modernization.
                                                                                                           Page 5
                                         Additional Security Is Needed for
                                       Access to the Registered User Portal



Identification Number 8 to specific individuals. We concur with the MITRE Corporation’s
recommendation and the IRS’ proposed corrective action. Assigning a separate Electronic Filing
Identification Number to each individual would allow for better accountability and identification
of persons accessing e-Services products. However, the IRS has not established a time period
for completing its impact analysis.

Procedures for approving e-file applicants who have a criminal record were not
always followed
The criminal background check is part of the suitability check and includes collecting fingerprint
cards and sending the cards to the Federal Bureau of Investigations. If the applicant has a
criminal record, the Electronic Products and Services Support function in the Andover Campus 9
submits a Fraud Referral Sheet to the Criminal Investigation Division’s Fraud Detection Center
(FDC). The FDC reviews the case and makes a recommendation whether to allow the applicant
to participate in the e-file program. The applicant may submit an appeal if their application is
denied. The FDC will review the appeal and decide whether to approve the application or
uphold its previous recommendation. The applicant may submit a second appeal if the FDC
upholds its previous recommendation. The second appeal must be sent directly to the Office of
Appeals, which reviews the case and makes a
recommendation on whether to accept the applicant.
IRS procedures do not specify a role for the ETARC            ***********1****************************
office in the appeals process.                               *****************************************
                                                                              *****************************
We found the appeals procedures are not always
followed. *****************1******************
*************************1*****************************************************
******************************************************************************
******************************************************************************
*******************************************************************************
******************************************************************************
******************************************************************************
******************************************************************************
******************************************************************************
*****************.



8
  The IRS requires that participants in the e-file Program use unique numbers called Electronic Filing Identification
Numbers to identify who transmitted electronic returns through e-file and their role on the system. The Electronic
Filing Identification Number is a six-digit number assigned by the IRS, and one number is assigned to a business
entity at an address.
9
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                              Page 6
                                         Additional Security Is Needed for
                                       Access to the Registered User Portal



**********************************1*****************************************
***************************************************************************
*****1*******. The ETARC office believes that, as the business owner of the e-file program,
it has this authority. We believe the FDC office has more expertise in preventing fraud, and this
office’s recommendation should be accepted.
The risk of granting unscrupulous individuals access to the RUP and e-Services significantly
increases when the IRS does not follow its procedures for approving users. ****1***********
****************************1************************************************
****************************************************************************

Manual suitability checks on an applicant’s spouse should be automated
IRS procedures require a tax compliance check on an e-file applicant and his or her spouse. For
this requirement, the IRS has automated the tax compliance check. The tax information is
extracted and analyzed efficiently using the Automated Suitability Analysis Program. This
Program uses information from the IRS Master File 10 to determine an applicant’s and his or her
spouse’s tax compliance for the last 6 years. The tax compliance information for the applicant is
posted to the Third Party Data Store. 11 However, limitations in the Third Party Data Store
prevent it from recording the complete results of the spouse’s tax compliance check. As a result,
the IRS must perform the spouse’s tax compliance check manually. Although the manual
suitability processes are thorough, the processes are labor intensive, inefficient, and increase the
risk of human error.
In our sample of 111 e-Services users, 30 users had spouses who required a manual suitability
check. The employees in the Electronic Products and Services Support function must use other
IRS computer systems to analyze the spouses’ tax compliance data and make a pass or fail
decision. Since the employees do not maintain most of the documentation involved in this
manual tax compliance check, we could not determine whether all of the required steps were
taken.
We believe that enhancing the Third Party Data Store to post the results of a spouse’s tax
compliance would reduce the risk of human error, ensure the check is completed in a more
timely manner, and allow the IRS to use its staff more efficiently by eliminating the current labor
intensive process.




10
   The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
11
   The system used to record and monitor information about individuals who have applied to participate in e-file.
                                                                                                            Page 7
                                       Additional Security Is Needed for
                                     Access to the Registered User Portal



Inactive user accounts on the RUP were not disabled and deleted in accordance
with IRS security policies and procedures
IRS security policies and procedures require inactive user access accounts to be regularly
monitored to ensure unneeded accounts are timely disabled and deleted. Inactive user accounts
should be disabled after 45 days and permanently removed after 60 days. 12 The intent is to
reduce the opportunity for malicious individuals to gain unauthorized access with an unused
access account. The IRS had a total of 380,770 RUP user accounts, as of June 15, 2009, which
consisted of the following segments.
     •   235,290 registered user accounts. These users have completed the registration process on
         the RUP and have access to the e-Services products. We found 206,032 (88 percent) of
         the 235,290 registered users had not accessed their account within 45 days. However, the
         accounts were not disabled. Rather than implement the control to disable the accounts
         after 45 days, the IRS set the control to 720 days.
     •   143,420 new accounts. These users began but did not complete the registration process.
         These users do not have access to the e-Services products but pose a risk because the
         applicant, or an individual posing as the applicant, could take steps to complete the
         registration process.
     •   2,060 locked-out accounts. These are accounts that are locked for various reasons such
         as inactivity.
We believe many of the above accounts are not needed and should be removed from the RUP
after a designated time period. For example, we found 86,553 (37 percent) of the registered user
accounts had not been accessed within 720 days.
The IRS did not implement the inactive user account security controls because it wanted to
accommodate the users, many of whom have only a seasonal need to use the RUP. Most
electronic returns are filed during the 4-month filing season, which runs from January through
mid-April each year. The IRS did not want to require tax professionals to re-register on the RUP
each year. However, we believe the risks associated with operating the RUP and e-Services are
increased when these security controls are not implemented.
Also, the procedures for requesting approval to deviate from these security controls were not
followed. The IRS has comprehensive procedures that allow a Designated Approving Authority
(DAA) 13 to deviate from required security controls. A risk-based decision must be completed
and signed by the DAA to permanently omit a security control from the system. In addition, the
DAA must complete a thorough risk assessment identifying potential threats to the system and


12
  During our fieldwork, the IRS changed its requirement for removing inactive accounts to 180 days.
13
  The Designated Approving Authority is a senior management executive with the authority to formally assume
responsibility for operating a system at an acceptable level of risk.
                                                                                                       Page 8
                                   Additional Security Is Needed for
                                 Access to the Registered User Portal



review any supporting documentation of alternative approaches and recommendations for
mitigation. The MITS organization’s Cybersecurity office is required to analyze the risk-based
decision and supporting documents and issue a recommendation to the DAA, who has the final
authority to accept the risk.
After we raised the lack of inactive user account security controls to the attention of the ETARC
office during our fieldwork, officials in this office immediately took action to obtain approval for
a permanent deviation for the 45-day inactive account requirement. However, the risk-based
decision procedures were not followed. A thorough assessment was not conducted by the DAA
or the Cybersecurity office. In addition, the risk-based decision memorandum was not signed by
the current DAA.
Lastly, the IRS has not taken action to permanently remove inactive RUP accounts or seek
approval to deviate from this required security control. Inactive accounts may remain on the
RUP indefinitely or until a user requests his or her account be removed.
Weak controls over user accounts could allow unauthorized individuals to gain access to the
accounts and access taxpayer’s personal information and commit fraudulent activities.

Password and username controls were not implemented
The IRS did not implement the required password complexity and username security controls for
the RUP. Specifically:
   •   Passwords are not set to require a mix of lower case and upper case letters.
   •   Passwords are not set to expire after 60 days as required. Users’ passwords are set to
       expire after 180 days.
   •   Password minimum length is set to 8 characters instead of the required 12 characters.
   •   Password histories are not maintained for the last 24 passwords. Currently, only the last
       five passwords are maintained.
   •   Users are allowed to use Social Security Numbers as their username. Usernames are
       used along with a password to identify a system user.
The IRS did not implement the same password and username security controls that it required for
its employees because the IRS wanted to make the RUP user friendly and accommodate the tax
preparation firms. IRS officials informed us that too many password controls could create an
undue burden on tax preparers during filing season, and possibly affect the timely filing of
income tax returns.




                                                                                             Page 9
                                        Additional Security Is Needed for
                                      Access to the Registered User Portal



Specifically on the use of Social Security Numbers as usernames, the Office of Management and
Budget 14 required Federal agencies to implement security requirements to explore alternatives to
the usage of Social Security Numbers as a personal identifier. Federal agencies were required to
develop a plan to eliminate or reduce the unnecessary use of Social Security Numbers by
September 2007 and take actions to eliminate or reduce the use of Social Security Numbers by
March 2009. In response to the Office of Management and Budget memorandum, the IRS
prepared the Social Security Number Elimination and Reduction Implementation Plan, dated
November 29, 2007, and stated it is committed to achieving compliance and ultimately reducing
risk by eliminating the unnecessary use of Social Security Numbers. However, the ETARC
office informed us that e-Services users will continue to be allowed to use their Social Security
Number as their username because the IRS has not developed a security policy prohibiting this
practice.
The IRS should enforce its security policy and ensure user accounts are protected with strong
passwords and usernames that cannot be easily guessed. The existence of weak passwords and
the ability to use Social Security Numbers as personal identifiers present security vulnerabilities
that could be exploited by a hacker. Usernames on e-Services are at a higher risk for disclosure,
since usernames are not masked. Usernames are shown in clear text when typed. In addition,
the IRS Helpdesk can provide any person an account username if they correctly answer two
challenge questions. External threats for stealing taxpayer data or sabotaging computer systems
can be greatly reduced with effective password and username controls.

The account lockout control was not fully implemented
The National Institute of Standards and Technology 15 recommends Federal agencies configure
systems to automatically lock out a user after three unsuccessful logon attempts. The account
lockout duration should be permanent until an authorized system administrator unlocks the user
account. For the IRS, the account lockout control is one control to prevent unauthorized access
to taxpayer information. However, this control was only partially implemented.
The IRS implemented the security control that automatically locks out users after three
unsuccessful logon attempts on the e-Services. *****2*********************************
****************************2************************************************
******************2*********************************** Due to the large number of
registered users on e-Services and the increased workload it may pose on the IRS Helpdesk, **2***
**********************************2********************************************
********2******************.


14
   Office of Management and Budget memorandum Safeguarding Against and Responding to the Breach of
Personally Identifiable Information (M-07-16, dated May 22, 2007).
15
   The National Institute of Standards and Technology is a Federal technology agency within the Department of
Commerce that develops and promotes measurement, standards, and technology.
                                                                                                         Page 10
                                  Additional Security Is Needed for
                                Access to the Registered User Portal



We believe that, given enough time and potential to try multiple username and password
combinations, an attacker might eventually succeed in compromising the security of e-Services
and gain access to sensitive taxpayer information.

Recommendations
Recommendation 1: To ensure taxpayer information is properly safeguarded and to
strengthen security for e-Services, the Director, ETARC, Wage and Investment Division, should
require suitability checks on delegated users who e-file tax returns or access the e-Services
incentive products and disable the principal consent feature on e-Services that allows a user to
propagate his or her privileges to other users.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated it would implement suitability checks on delegated users who e-file tax returns or
       access the e-Services incentive products, subject to available funding and the MITS
       organization’s resource prioritization. The IRS also stated this action would eliminate the
       need to disable the e-Services principal consent feature.
       Office of Audit Comment: We concur with the IRS statement that implementation of
       suitability checks on delegated users would eliminate the need to disable the e-Services
       principal consent feature.
Recommendation 2: To ensure only qualified applicants who meet IRS suitability standards
are approved for the e-file program or given access to the e-Services incentive products, the
Director, ETARC, Wage and Investment Division, should stop overturning the FDC’s
recommendations and revise the appeal procedures for e-file applicants and other tax
professionals who fail their suitability check. The procedures should specify that the Criminal
Investigation Division’s FDC has the final authority to approve or disapprove an applicant with a
criminal record.
       Management’s Response: The IRS agreed that documentation of IRS final authority
       to approve or disapprove e-file applicant appeals should be strengthened and the criteria
       by which applicants’ appeals are evaluated should be clarified. The IRS stated that it
       recognized the research and recommendations of the FDC are a vital component of the
       approval process and believes that consideration should be given to extenuating
       circumstances, such as the nature of the offence and the length of time since the offence
       was committed.
       In addition, the IRS believes the final authority for approvals of applicants with criminal
       records should not rest solely with the Criminal Investigation Division, and the IRS
       recognizes the need to have a comprehensive review of any deviations from the Criminal
       Investigation Division’s recommendations. Therefore, the IRS consulted with Criminal
       Investigation Division management and agreed that the IRS will establish a

                                                                                          Page 11
                                  Additional Security Is Needed for
                                Access to the Registered User Portal



       cross-business division Executive Review Board to formally consider deviations from the
       Criminal Investigation Division’s recommendations. The new board will include
       members from the Wage and Investment Division and the Office of Professional
       Responsibility, along with representatives from other business operating divisions.
       Further, the IRS will update its procedures to clearly reflect the standards of review and
       ensure a more consistent, balanced, and impartial suitability decision process.
       Office of Audit Comment: We concur with the IRS decision to strengthen its
       procedures for evaluating applicants with criminal records and establish an Executive
       Review Board to formally consider any deviations from the Criminal Investigation
       Division’s recommendations.
Recommendation 3: To reduce the risk of human error and the amount of time needed for
manually conducting a tax compliance check for an e-file applicant’s spouse, the Chief
Technology Officer should enhance the e-file application on the Third Party Data Store to post
the complete results of the Automated Suitability Analysis Program’s spouse tax compliance
check.
       Management’s Response: The IRS agreed with this recommendation. The Director,
       ETARC, Wage and Investment Division, will submit a Unified Work Request to the
       MITS organization to request programming changes to the Third Party Data Store to
       allow posting of the complete results of the Automated Suitability Analysis Program’s
       spouse tax compliance check.
Recommendation 4: To mitigate the risk of an unauthorized intruder accessing an inactive
access account, the Director, ETARC, Wage and Investment Division, should disable and delete
inactive accounts in accordance with IRS procedures or follow the IRS’ risk-based decision
procedures to obtain the required thorough assessment, recommendation, and approval from the
MITS organization’s Cybersecurity office.
       Management’s Response: The IRS agreed with this recommendation and stated it
       will work with the MITS organization’s Cybersecurity office to complete a full
       risk-based decision process, including the analysis and review, and will execute a revised
       risk-based decision memorandum that complies with the MITS organization’s standards
       and replaces the current memorandum dated September 29, 2009.
Recommendation 5: To make passwords more difficult to guess by unauthorized individuals
and to decrease the use of Social Security Numbers as usernames, the Director, ETARC, Wage
and Investment Division, should:
   •   Request the Chief Technology Officer enhance the identification and authorization
       component of the RUP to require passwords to contain a mix of lower case and upper
       case letters, set the password length to 12 characters, and prevent the use of Social
       Security Numbers as usernames.

                                                                                         Page 12
                                   Additional Security Is Needed for
                                 Access to the Registered User Portal



   •   Obtain the required thorough assessment, recommendation, and approval from the
       Cybersecurity office and approval from the DAA to deviate from the IRS password
       expiration and history requirements.
       Management’s Response: The IRS partially agreed with this recommendation. For
       the first bullet above, the IRS agreed to prevent the use of Social Security Numbers as
       usernames and to require passwords to contain a mixture of uppercase and lowercase
       letters. The IRS disagreed with the recommendation to set the password length to
       12 characters, citing its revised procedures, dated July 31, 2009, to lower the minimum
       password length to 8 characters for all systems except the Windows operating system.
       For the second bullet above, the IRS stated that although it took initial action to
       implement the risk-based decision procedures, it recognizes additional work needs to be
       conducted. The IRS stated it will work with the MITS organization’s Cybersecurity
       office to obtain the requisite thorough assessment, recommendation, and approval from
       the DAA to deviate from the IRS password expiration requirement.
       The IRS stated it will submit a Unified Work Request to the MITS organization
       requesting the RUP be brought into compliance with the IRS password composition and
       history retention requirements. In addition, the IRS will submit a Unified Work Request
       to prevent Social Security Numbers from being used as usernames. In the interim, the
       ETARC office will modify an existing Unified Work Request to alert applicants not to
       use their Social Security Numbers as their usernames.
       Office of Audit Comment: We confirmed the IRS lowered its password complexity
       requirements during our audit to require only eight characters for all non-Windows
       operating systems. Therefore, we concur with the IRS decision to not set the password
       length to 12 characters.
Recommendation 6: To prevent hackers from forcing their way into the RUP, the Director,
ETARC, Wage and Investment Division, should request the Chief Technology Officer
implement a control to allow users to answer a series of challenge questions to unlock their
accounts.
       Management’s Response: The IRS agreed with this recommendation and stated a
       Unified Work Request will be submitted to the MITS organization requesting
       programming modifications to include a series of challenge questions to allow users to
       unlock their accounts. The IRS also stated that other resource issues need to be evaluated
       to address additional costs associated with implementing this corrective action.

Audit Logs for the Registered User Portal Are Not Reviewed
The IRS is required to create, protect, retain, and analyze the audit logs of information systems
that process taxpayer data to detect unlawful or unauthorized activities. Every interaction with

                                                                                           Page 13
                                        Additional Security Is Needed for
                                      Access to the Registered User Portal



taxpayer data through a system or application is an auditable event and should be reviewed.
Audit logs should be used for periodic reviews and for real-time analysis. We found the RUP
audit logs created by the web servers located in Chicago, Illinois, and Sterling, Virginia, capture
many of the required auditable events and are synchronized to the required IRS authoritative
time source. 16 However, the IRS does not review the audit logs.
The Cybersecurity office provided three reasons why the RUP audit logs are not reviewed.
     1) The data captured in the RUP audit logs are too voluminous to analyze. The
        Cybersecurity office informed us it has attempted numerous techniques to reduce the
        amount of data captured in the logs. However, its attempts to make the audit logs useful
        were not successful.
     2) The Cybersecurity office does not have a process in place to review the activities of
        external users of systems such as the RUP.
     3) The IRS has not allocated sufficient resources to the Security Audit and Analysis
        System 17 to review all audit logs from every computer system. Therefore, the IRS
        prioritizes the systems for which it will analyze audit logs, and the RUP audit logs are not
        ranked high enough on the priority list.
Proper review of audit logs ensures that activities performed on a system can be traced back to
an individual. In addition, inadequate accountability controls could prevent the IRS from
identifying and investigating security incidents, policy violations, fraudulent activity, and
operational problems. We believe that the lack of RUP audit log reviews increases the likelihood
that questionable activities could go unnoticed and intruders could gain access to sensitive
taxpayer data without being detected.




16
   The IRS requires all servers and audit logs be synchronized to the Greenwich Mean Time, which refers to a
high-precision atomic standard to set time.
17
   The Security Audit and Analysis System implements a data warehousing solution to provide online analytical
processing of audit log data. The System enables the IRS to detect potential unauthorized accesses to IRS systems.
It provides analysis and reporting capabilities for all modernized systems and for some current processing
environment applications.




                                                                                                          Page 14
                                  Additional Security Is Needed for
                                Access to the Registered User Portal



Recommendation
Recommendation 7: To detect unlawful or unauthorized activities on the RUP, the IRS Chief
Technology Officer should instruct the Cybersecurity office to develop a process to analyze the
activities of RUP users and begin reviewing the audit logs.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated that the RUP audit logs are currently being reviewed to detect unlawful or
       unauthorized activities. The IRS is currently using RealSecure to generate events in the
       audit logs. The employees are also required to document the date of their reviews.




                                                                                         Page 15
                                           Additional Security Is Needed for
                                         Access to the Registered User Portal



                                                                                        Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS established effective
access and audit trail controls for the RUP, which allows access to the IRS’ e-Services 1 suite of
applications, to protect taxpayer data from unauthorized disclosure. To accomplish our
objective, we:
I.         Determined whether authentication controls were operating effectively to limit access to
           authorized users.
           A. Interviewed the Electronic Tax Administration office to determine whether an
              e-Authentication risk assessment was completed.
           B. Determined whether users have been properly registered and authorized.
           C. Determined whether generic, default, or duplicate accounts exist.
           D. Determined whether group accounts exist that would allow users to perform activities
              on the system without being identified.
           E. Determined whether temporary or emergency accounts exist.
           F. Determined whether inactive accounts exist.
           G. Determined whether user permissions have been restricted based on the principle of
              least privilege, which limits users’ abilities on the system to only those necessary to
              complete their assigned tasks.

                Sampling Methodology
                The IRS was unable to query the SiteMinder component of the Enterprise Directory
                and Authentication Services system to determine the total population of RUP users
                who have access to the e-Services incentive products. Therefore, we worked with the
                system administrators in the IRS MITS organization’s Cybersecurity office to select a
                random sample and accomplish this audit test. We selected 111 authorized users with
                access to the 3 e-Services incentive products (Disclosure Authorization, Electronic
                Account Resolution, and Transcript Delivery System). The users are segmented on
                the SiteMinder according to the first letter or digit of their username. There are a
                total of 36 segments on the system – 26 alphabets (A-Z), and 10 numbers (0-9). We


1
    See Appendix IV for a list of e-Services products.
                                                                                               Page 16
                                  Additional Security Is Needed for
                                Access to the Registered User Portal



           selected three users in each alphabet and number, except digits 0 and 8. We selected
           5 users for the number 0, and 4 users for the number 8. To verify the validity and
           reliability of the data in the SiteMinder, we compared the total number of RUP users
           on SiteMinder to the total number of RUP users on the IRS Third Party Data Store,
           which is a separate system used to record and monitor information about individuals
           who have applied to participate in the e-file program. Total number of users on the
           Third Party Data Store was commensurate with the total users on the SiteMinder.
       H. Determined whether password control for user accounts meets IRS guidelines.
       I. Interviewed system administrators to determine whether the system automatically
          locks out a user after three unsuccessful logon attempts.
       J. Determined whether the appropriate warning banner is displayed to warn all persons
          attempting to gain access to the system that the system and its information are for
          authorized users only and that attempts to illegally log on to the system could lead to
          criminal prosecution.
II.    Determined whether the IRS properly captured, stored, analyzed, and retained audit trails.
       A. Obtained and reviewed the System Security Plan.
       B. Determined whether audit trails were properly captured.
       C. Determined whether audit trails were properly stored.
       D. Determined whether audit trails were properly retained.
       E. Determined whether audit trails were properly analyzed to detect unauthorized
          activities.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Wage and Investment Division’s
policies and procedures for processing e-file applications and administering RUP users’ access
accounts, and the MITS organization’s processes for capturing and analyzing audit trails. We
evaluated these controls by interviewing management, reviewing case files, and analyzing RUP
users’ accounts.




                                                                                          Page 17
                                 Additional Security Is Needed for
                               Access to the Registered User Portal



                                                                              Appendix II

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Allen Gray, Audit Manager
John Brown, Senior Auditor
Charles Ekunwe, Senior Auditor
Cari Fogle, Senior Auditor
Michelle Griffin, Senior Auditor




                                                                                     Page 18
                                 Additional Security Is Needed for
                               Access to the Registered User Portal



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Wage and Investment Division SE:W
       Director, Program Oversight OS:CIO:SM:PO




                                                                                     Page 19
                                             Additional Security Is Needed for
                                           Access to the Registered User Portal



                                                                                        Appendix IV

                          List of Internal Revenue Service
                                 E-Services Products

This appendix presents the different applications within the IRS’ e-Service suite of products 1 that
can be accessed through the RUP.
       1. Disclosure Authorization: The Disclosure Authorization application provides the
          ability for the registered user to edit, sign, and transmit a disclosure authorization
          transaction.
       2. Electronic Account Resolution: Electronic Account Resolution allows tax professionals
          to expedite closure on a client’s account problems by electronically sending and receiving
          account-related inquiries. Tax professionals may inquire about individual or business
          account problems, refunds, and missing payments. Tax professionals must have a Power
          of Attorney document on file at the IRS before accessing a client’s account.
       3. Transcript Delivery System: Transcript Delivery System provides self-service for
          return and account information requests by external tax professionals through the RUP.
          Transcript Delivery System transactions include self-service electronic communication,
          where the user can request and receive a transcript of a taxpayer’s personal tax data
          interactively through the RUP.
       4. Registration Services: Before using other e-Services products, tax professionals must
          register online on the Registration Services to create an electronic account. The
          registration process is a one-time process for tax professionals to select a username,
          password, and personal identification number. An on-screen acknowledgment
          immediately confirms the registration process. For security purposes, a confirmation
          code is mailed to the tax professional to complete the registration process.
       5. E-File Application: IRS E-File Application provides the online interface component
          through which an organization may apply for participation in the IRS e-file program.
          Functionality includes the ability to initially apply and/or revise an existing application
          for processing by the IRS.
       6. Preparer Tax Identification Number Application: The Preparer Tax Identification
          Number Application lets paid preparers apply for and receive a personal identification
          number immediately over the Internet.


1
    The first three e-Services products listed are referred to as incentive products.
                                                                                               Page 20
                             Additional Security Is Needed for
                           Access to the Registered User Portal



7. Interactive Taxpayer Identification Number (TIN) Matching: Interactive TIN
   Matching is a prefiling service offered to banks or others that pay income subject to
   backup withholding. Authorized payers can match up to 25 TIN and name combinations
   against IRS records before submitting an information return. This prefiling check
   prevents mismatches and possible penalties for the payer.
8. Bulk TIN Matching: Similar to Interactive TIN Matching, the Bulk TIN Matching
   allows authorized users to match up to 100,000 TIN and name combinations with IRS
   records prior to submission.




                                                                                 Page 21
  Additional Security Is Needed for
Access to the Registered User Portal




                                       Page 23
  Additional Security Is Needed for
Access to the Registered User Portal




                                       Page 24
  Additional Security Is Needed for
Access to the Registered User Portal




                                       Page 25
  Additional Security Is Needed for
Access to the Registered User Portal




                                       Page 26
  Additional Security Is Needed for
Access to the Registered User Portal




                                       Page 27
  Additional Security Is Needed for
Access to the Registered User Portal




                                       Page 28
